U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


                     BUREAU OF EXPORT
                       ADMINISTRATION
        Reporting of Performance Measures
                        Needs Improvement
        Final Audit Report No. FSD-12847/September 2000




       Office of Audits, Financial Statements Audits Division
September 29, 2000



MEMORANDUM FOR:               William Reinsch
                              Under Secretary for Export Administration

FROM:                         Johnnie E. Frazier

SUBJECT:                      Reporting of Performance Measures Needs Improvement
                              Final Audit Report No. FSD-12847

This is our final report on the performance measures used by the Bureau of Export
Administration. Our audit found a commitment on the part of the bureau to the
verification and validation of its performance data. However, additional efforts are needed to
ensure the accuracy and reliability of data included in reports submitted by BXA and the
Department of Commerce. Specifically, we found that improvements are needed to ensure that
performance data is reported accurately and consistently and that variances in data reported are
disclosed and explained. We also found that internal controls need to be strengthened to ensure
that reported performance data is accurate. We recommend that procedures be established to
ensure that (1) reported results are accurate and consistent and any differences in data between
reports are disclosed and explained, and (2) supporting documentation is maintained and
reconciliations between reports and/or source documents are performed. We recognize that
implementation of the Government Performance and Results Act of 1993 (GPRA) is an iterative
process that will require continued attention from BXA management. (See pages 5-11.)

Your response to the draft expressed agreement with the findings and recommendations and
noted corrective actions that have already been taken. We have incorporated your comments
into the final report, and your complete response is attached.

Please provide your action plan addressing the recommendations for our concurrence within 60
days of the date of this memorandum in accordance with Department Administrative Order
(DAO) 213-5. The plan should be in the format of exhibit 7 of the DAO. Should you have any
questions regarding preparation of the action plan, please contact me at (202) 482-4661, or
Thomas McCaughey, Director, Financial Statements Audits Division, at (202) 482-6044, within
10 days after receiving this report. We appreciate the cooperation and courtesies extended to us
by BXA staff during the review.
U.S. Department of Commerce                                                      Final Report No. FSD-12847
Office of Inspector General                                                                   September 2000


INTRODUCTION

This final report presents the results of the OIG’s audit of BXA’s collection and reporting of
performance measurement data. To meet the requirements of GPRA and the Chief Financial
Officers Act of 1990 (CFO Act), as amended by the Government Management Reform Act of
1994 (GMRA), BXA and the Department of Commerce must prepare annual performance plans
and reports. To be useful to the Congress, the Office of Management and Budget (OMB), and
the public, the performance data reported must be credible. We performed our review to
examine BXA’s efforts to ensure that reported performance results are accurate, consistent, and
reliable.

GPRA was established in 1993 to improve the effectiveness, efficiency, and accountability of
federal programs by requiring agencies to set goals for program performance and to report on
annual performance as compared with goals. The Department of Commerce’s FY 1999 Annual
Program Performance Report was the Department’s initial effort to report and comment on the
performance results of its reporting entities, including BXA. The Department’s FY 2001 Annual
Performance Plan, which identifies target performance results, was its third annual performance
plan. BXA performance data was also presented in the Department’s FY 1999 Accountability
Report,1 its first, and in the bureau’s financial statements.

As the President’s principal adviser on export control policy issues, BXA’s mission is to promote
U.S. national and economic security, public safety, and foreign policy interests by managing and
enforcing the Department’s security-related trade and competitiveness program. In support of its
mission, BXA included 10 performance measures in the Department’s FY 1999 Annual Program
Performance Report and its FY 2001 Annual Performance Plan, and 2 measures in the FY 1999
Accountability Report. (See Table 1.)

To fulfill GPRA requirements and improve program results, data on program performance must
be accurate, consistent, and reliable. GPRA introduces the concepts of data verification and
validation, which refer to the quality control procedures needed to ensure that users such as the
Congress and OMB can have confidence in the reported performance information. Data
verification is the assessment of data completeness, accuracy, and consistency, and the related
internal control structure, while data validation is the assessment of the data to determine whether
it is appropriate for the performance measure.2

       1
           GMRA authorizes the streamlining and consolidation of certain statutory financial management and
           performance results into a single accountability document.
       2
        Performance Plans: Selected Approaches for Verification and Validation of Agency Performance
        Information, U.S. General Accounting Office, GAO/GGD-99-139, July 30, 1999.

                                                       2
U.S. Department of Commerce                                        Final Report No. FSD-12847
Office of Inspector General                                                     September 2000


                                       TABLE 1

                                                            FY 1999
                                                             Annual           FY 2001
                                           FY 1999          Program            Annual
                                         Accountability   Performance        Performance
    BXA Performance Measure                 Report           Report              Plan
 Number of high-risk transactions            T                T                  T
 deterred
 Average processing time (days) for          T                T                  T
 license applications
 Number of                                                    T                  T
 nonproliferation and export control
 international cooperative exchanges
 Number of investigations completed                           T                  T
 Number of end-use visits                                     T                  T
 Number of license decisions                                  T                  T
 Number of export assistance                                  T                  T
 seminars/conferences
 Number of enforcement outreach                               T                  T
 visits
 Number of investigations accepted                            T                  T
 for criminal or administrative
 remedies
 Number of strategic industry                                 T                  T
 analysis

The Deputy Under Secretary, supported by the Office of Planning, Evaluation and Management,
is responsible for BXA’s strategic planning process. The Office of Planning, Evaluation and
Management is responsible for performance information contained in the Annual Program
Performance Report, while the Office of the Comptroller is responsible for the performance
information in the bureau and departmental financial statements. BXA is represented on


                                                 3
U.S. Department of Commerce                                           Final Report No. FSD-12847
Office of Inspector General                                                        September 2000


Commerce’s Strategic Planning Task Force, which coordinates the bureau’s GPRA efforts with
the Department.

In their comments on government-wide implementation of GPRA, both the Congress and the
General Accounting Office (GAO) have emphasized the importance of performance data being
credible. Management is responsible for establishing policies and procedures to ensure that data
can be relied upon. BXA has demonstrated a commitment to the validation and verification of
performance data by devoting senior management attention to the bureau’s progress on GPRA,
hiring key personnel, and developing and continuing to refine a draft data verification and
validation methodology plan.


OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to (1) assess the collection and reporting of BXA performance
information in documents submitted to meet GPRA reporting requirements (the FY 1999 Annual
Program Performance Report and the FY 2001 Annual Performance Plan) and GMRA
requirements (the FY 1999 Accountability Report and BXA’s FY 1999 Financial Statements),
and (2) determine whether BXA’s internal controls are sufficient to ensure that performance data
is accurate, consistent, and reliable. Determining whether BXA performance measures are the
most appropriate for the bureau was not within the scope of our audit. Our audit focused on the
bureau’s efforts to ensure data quality and reliability for performance measures that it plans to
report on for FY 2000.

The methodology for our audit included identifying and testing internal controls over
performance measures; assessing BXA’s commitment to data reliability; performing procedures
to validate and verify performance data; and interviewing departmental and BXA officials
responsible for generating, maintaining, and reporting the performance data. Since we relied on
computer-generated data for part of our review, we reviewed applicable controls to ensure the
data’s accuracy. Based on our assessments, we concluded the data are sufficiently reliable to be
used in meeting the audit objectives. Our field work was conducted from April to July 2000 at
BXA headquarters in Washington, D.C.

While we evaluated the consistency of reporting of all 10 measures, we tested the internal
controls established to ensure the credibility of the data for just 5 of the measures. Two
performance measures (number of high-risk transactions deterred and average processing time
for license applications) were selected because they were reported in both the FY 1999 Annual
Performance Plan and the FY 1999 Accountability Report, while the other three (number of
nonproliferation and export control international cooperative exchanges, number of


                                                4
U.S. Department of Commerce                                                   Final Report No. FSD-12847
Office of Inspector General                                                                September 2000

investigations completed, and number of end-use visits) were selected because of inconsistencies
in reported information between various GPRA products and BXA’s FY 1999 financial
statements.

We tailored our audit procedures to the particular performance measure reviewed. For the
performance measure on the number of high-risk transactions deterred, we reviewed 5 out 1,149
of applications deterred in FY 1999. For the measure on the average processing time for license
applications, we recalculated the measure after assessing the controls over the system producing
the data. For the measure on the number of nonproliferation and export control international
cooperative exchanges, we reviewed all 45 events claimed by BXA. For the measure on the
number of investigations completed, we selected 7 out of a population of 1,042 items to test. For
the number of end-use visits conducted, we selected 22 out of a population that fluctuated
between 753 and 869. Items were selected for indications of the success or failure of internal
controls established to ensure accurate and reliable performance data.

The audit was conducted in accordance with the Government Auditing Standards, issued by the
Comptroller General of the United States, and was performed under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.

FINDINGS AND RECOMMENDATIONS

I.     Reporting of Performance Information Can Be Improved

Although BXA has demonstrated its commitment to verifying and validating performance data
by developing a data verification and methodology plan, additional efforts are needed to improve
its reporting of performance information. Our audit found that the FY 1999 performance data
was not always reported accurately or consistently between reports.3 Also, appropriate
disclosures necessary to explain differences between the data contained in the various reports
were not included in the reported information. Specifically, we found discrepancies in 15 out of
40 sets of numbers (i.e., BXA’s FY 1999 actual numbers and its target numbers for FY 1999,
FY 2000, and FY 2001 for each of 10 externally reported performance measures) used in the
reporting of performance measurement data in documents to comply with GPRA and the CFO
Act, as amended by GMRA. The failure to report data accurately and consistently or to disclose
the rationale for differences in reported data calls into question its credibility.



       3
           BXA’s FY 1999 performance results were reported in the Department of Commerce’s Annual
           Performance Plans, Annual Program Performance Report, and Accountability Report. Performance
           results were also included in the bureau’s FY 1999 Financial Statements.

                                                     5
U.S. Department of Commerce                                            Final Report No. FSD-12847
Office of Inspector General                                                         September 2000


A.     Reporting of Results Needs to Be Accurate and Consistent

One instance in which performance results were not reported consistently involved the reporting
of the number of non-proliferation and export control international cooperative exchanges in the
Department’s FY 1999 Annual Program Performance Report and in the bureau’s FY 1999
Financial Statements. The performance report identified 46 international cooperative exchanges,
while the financial statements reported 45. The independent public accountant hired to audit the
financial statements concluded that the correct number was 45. However, the necessary revision
was not made in the FY 1999 Annual Program Performance Report or the FY 2001 Annual
Performance Plan. The discrepancy between reports resulted from insufficient coordination
between the Office of Comptroller and the Office of Planning, Evaluation and Management.
Since the financial statement audit report was completed before March 1, 2000, the correct figure
could have been included in the Annual Program Performance Report before it was issued at the
end of March.

In five instances, inaccurate performance data was reported because of an inadequate review of
documents before publication. These inaccuracies included typographical errors and double-
counting of completed investigations. For example, the number of investigations completed in
FY 1999 was erroneously reported as 1,046, as opposed to 1,042, in the FY 1999 Annual Program
Performance Report due to a typographical error. The same measure was erroneously reported
as 1,069 in the FY 2001 Annual Performance Plan because some completed investigations were
double-counted. There are no procedures covering the final review or the responsibility to ensure
the appropriate data is included in published documents.

Two reporting errors resulted from extracting the data from the system containing performance
information before all of the data was input into the system. For example, the number of
enforcement outreach visits was reported in the FY 2001 Annual Performance Plan as 1,142.
However, all of the completed visits had not been entered into the system when the number was
extracted. As a result, this number was later changed to 1,199 in the bureau’s FY 1999 Financial
Statements and the FY 1999 Annual Program Performance Report. BXA needs to ensure that all
performance data has been input to the system before it is extracted for inclusion in performance
reports and that when numbers change, sufficient disclosures are provided.

OMB Circular A-123, Management Accountability and Control, defines management controls
as organization policies and procedures used by agencies to reasonably ensure that reliable and
timely information is obtained, maintained, reported, and used for decision-making. Also,
GAO’s Standards for Internal Control in the Federal Government, issued in November 1999,
states that internal controls and all transactions need to be clearly documented and should appear



                                                6
U.S. Department of Commerce                                               Final Report No. FSD-12847
Office of Inspector General                                                            September 2000

in management directives, administrative policies, or operating manuals in paper or electronic
form.

B.     Explanations for Variances in Reported Data Are Needed

In some instances, there were valid reasons why target and actual performance results changed
between reports. However, reports containing performance information did not explain why
numbers had changed. The disclosure of changes and the reasons for them would be helpful to
users of the information.

We identified instances in which reported data differed from actual results because subsequent
events necessitated the revision of performance data. For the number of end-use visits, for
example, the reported numbers differed because additional visits were input into the system after
the population count was extracted from the system. This number was under-reported as 753 in
BXA’s FY 1999 Financial Statements, and subsequently revised and reported as 869 in the
FY 1999 Annual Program Performance Report and the FY 2001 Annual Performance Plan.

In several instances, target numbers were revised to reflect changes in circumstances, funding,
and priorities. For the number of high-risk transactions deterred, a policy decision resulting in
increased export sanctions necessitated the revision of targeted performance levels from 303 in
the FY 1999 Annual Performance Plan to 504 in subsequent reports. However, the reasons for
the revisions were not explained in reporting documents.

OMB Circular A-11, Preparation and Submission of Strategic Plans, Annual Performance
Plans, and Annual Program Performance Reports, dated July 1999, states that an agency may
selectively include comments on the quality of the performance data included in the Annual
Program Performance Report where such comments would be helpful in understanding the
accuracy and validity of the data.

C.     Recommendation

We recommend that the Under Secretary for Export Administration establish procedures to
ensure the accuracy and consistency of reported results. The procedures should identify
responsibility for ensuring that reported information is consistent or that there is appropriate
disclosure of and explanation for differences.




                                                  7
U.S. Department of Commerce                                                       Final Report No. FSD-12847
Office of Inspector General                                                                    September 2000



Under Secretary for Export Administration Response and OIG Comments

In his written response to the draft report, the Under Secretary for Export Administration agreed
with our findings and recommendation. The response stated that closer coordination between
offices responsible for preparation and publication of GPRA and CFO Act related documents will
reduce the likelihood of publishing differing performance data and that an explanation will be
included when performance targets change. The response indicated that we should discuss this
recommendation with appropriate departmental level personnel because the final review, editing,
and publishing of Commerce reports prepared to meet these legislative requirements is done at
the departmental level. Our continuing dialogue with the Department on GPRA and CFO
reporting will include the importance of consistent reporting of performance data and explanation
of revised performance targets. The response also identified a number of steps taken by BXA to
improve the reporting of the number of end-use visits. We commend BXA for these actions
already taken.

II.     Additional Improvements in Internal Controls Are Needed

Additional improvements are needed in the internal controls BXA has established to ensure
accurate and reliable performance data.4 During our testing of five BXA performance measures,
we found that BXA’s supporting documentation should be strengthened for two measures and
that procedures such as reconciliations were needed to ensure accurate performance data for a
third measure.

A.      Supporting Documentation Should Be Strengthened

For two of the five measures tested, we found that supporting documentation on performance
data for the performance measures on the number of nonproliferation and export control
international cooperative exchanges and the number of high-risk transactions deterred needs
strengthening. OMB Circular A-123 states that documentation for transactions, management
controls, and other significant events must be clear and readily available for examination. GAO’s
Standards for Internal Control in the Federal Government states that all documentation and
records must be properly managed and maintained.

The binder containing supporting documentation on the number of nonproliferation and export
control international cooperative exchanges could not be readily located. When the binder was
finally located, the supporting documentation for one exchange was missing and additional



        4
          Internal controls are the organizational plan and the coordinated methods and measures used to
safeguard the reliability of an agency’s reporting systems.

                                                        8
U.S. Department of Commerce                                                      Final Report No. FSD-12847
Office of Inspector General                                                                   September 2000


documentation had to be obtained. Also, documentation in the binder consisted principally of
planning documentation (i.e., agendas, itineraries, and correspondence planning the trip).
Documentation providing evidence that the trip actually occurred was not included in the files.

We also found that BXA was unable to recreate the population of the actual number of high-risk
transactions deterred. Attempts to recreate this population gave us only 1,149, compared with
the 1,160 reported in the Department’s FY 1999 Accountability Report and the FY 1999 Annual
Program Performance Report. This difference is due to the fact that 11 cases considered deterred
as of FY 1999 were reopened in FY 2000. Since the data used to compile the reported results
cannot be recreated, providing a data download of this information at year-end could help
prevent this problem in the future.

B.     Controls to Ensure Accurate Data Should Be Strengthened

Internal controls over four of the five measures we tested were effective. However, controls to
ensure accurate reporting of performance results for the measure on the number of end-use visits
needs to be improved.5 Specifically, we determined that controls needed to be strengthened for
three components of this measure: (1) pre-license checks, (2) post-shipment verifications by
BXA’s special agents, and (3) post-shipment verifications by the U.S. Foreign & Commercial
Service not under NDAA. Consequently, we were unable to determine the correct number of
end-use visits conducted in FY 1999. The number of end-use visits in FY 1999, which was
originally reported as 869 in the FY 1999 Annual Program Performance Report, was re-calculated
and determined to be 835 by BXA.

For the pre-license checks, we identified errors in two of our sample of seven items. The first
error was the result of a system error, which resulted in a planned action being counted twice.
Subsequently, when the planned action was canceled, one of the actions was deleted from the
system while the duplicate created by the system remained. As a result, that action was
erroneously included in the FY 1999 total. The second error was the result of an analyst taking
longer than the allotted time to review the results of the check and make a decision to close it. As
a result, a check that should have been closed and counted in FY 1998 was erroneously counted
in FY 1999.




       5
           End-use visits consists of four components: pre-license checks, post-shipment verifications by BXA’s
           agents, post-shipment verifications by the U.S. Foreign & Commercial Service under the National
           Defense Authorization Act (NDAA), and post-shipment verifications by the U.S. Foreign & Commercial
           Service not under NDAA.

                                                       9
U.S. Department of Commerce                                             Final Report No. FSD-12847
Office of Inspector General                                                          September 2000


For post-shipment verifications performed by the U.S. Foreign Commercial Service not under
NDAA, we identified three errors out of a sample of five items. The first error was attributed to
the untimely entry of data into the system. As a result, an FY 1997 verification was erroneously
counted in the FY 1999 population. The second error, also attributed to data entry, resulted in an
item being counted twice, appropriately in FY 1998 and mistakenly in FY 1999. The third error
was attributed to untimely data entry and as a result of the system not recognizing that a
verification had been canceled. As a result, this verification was double-counted, correctly in
FY 1998 and incorrectly in FY 1999.

After our testing, a BXA reconciliation for the performance measure identified an additional four
items that should not have been included in the population as well as one additional item that
should have been included. OMB Circular A-123 states that transactions should be promptly
recorded, properly classified, and accounted for in order to prepare timely accounts and reliable
financial and other reports. Also, GAO’s Standards for Internal Control in the Federal
Government states that activities need to be established to help ensure that all transactions are
completely and accurately reported.

C.     BXA’s Effort in Establishing an Effective Internal Control System

We commend BXA for the actions it is taking to correct the internal control weaknesses we
identified. The bureau’s management stated that they are implementing procedures that will
mitigate the system errors, reprogramming the system so that it will establish the end-use visit
dates automatically, establishing uniform cut-off dates for the end-use visits, and establishing
comprehensive reviews and reconciliations.

D.     Recommendation

We recommend that the Under Secretary for Export Administration establish an effective internal
control structure that includes the maintenance of adequate documentation to support
performance results and the performance of reconciliations of performance data between source
documents and various GPRA products.

Under Secretary for Export Administration Response and OIG Comments

In his written response to the draft report, the Under Secretary for Export Administration agreed
with our findings and recommendation. The response stated that BXA has already taken
corrective steps to strengthen supporting documentation, including the download of performance
data from the Export Control Automated Support Systems (ECASS) at the end of the fiscal year.
Also, the response noted that the bureau is working with the Department to improve




                                                10
U.S. Department of Commerce                                       Final Report No. FSD-12847
Office of Inspector General                                                    September 2000

implementation of GPRA. These efforts will be reflected in new strategies and performance
measures in the Department of Commerce’s FY 2000-2005 Strategic Plan and the FY 2002
Annual Performance Plan. We commend BXA for its efforts to improve the Department’s
implementation of GPRA, including the strengthening of documentation to support performance
results.

Attachment




                                            11
